                                                         IG-00-053




AUDIT                        NASA’S AVIATION SAFETY PROGRAM
REPORT
                                    September 26, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

ASIST           Aviation Safety Investment Strategy Team
AvSP            Aviation Safety Program
FAA             Federal Aviation Administration
GAO             General Accounting Office
GPRA            Government Performance and Results Act
NTSB            National Transportation Safety Board
W                                                                                         September 26, 2000


TO:                A/Administrator

FROM:              W/Inspector General

SUBJECT:           INFORMATION: NASA's Aviation Safety Program
                   Report Number IG-00-053


The NASA Office of Inspector General has completed an audit of NASA's Aviation Safety
Program (AvSP). We found that coordination between NASA, the Federal Aviation
Administration (FAA), and other partners is adequate. However, NASA has not consistently
portrayed the intended performance of its Aviation Safety Initiative. The Aviation Safety
Initiative is a combination of redirected Research and Technology Base1 activities and the
creation of the focused2 AvSP. Specifically, the Agency has been inconsistent in stating its goal
for the Initiative3, identifying all baselines4 that will measure progress towards meeting the goal,
emphasizing the risks5 involved with the development and implementation of the aviation safety
technologies and the effects of those risks on achieving the goal, and integrating the goal and
baseline with the FAA. As a result, NASA may not be able to measure its contribution towards
meeting the National Aviation Safety Goal. In addition, NASA may not fulfill the expectations
of the Congress, the aviation community,6 and the public relating to NASA's aviation safety
efforts.



1
  Research and Technology Base programs enhance safety activities with tools and insights to fundamental principles
and support the development of technologies that will address accidents involving hazardous weather, controlled flight
into terrain, human error, and mechanical or software malfunctions.
2
  NASA selects specific technologies based on national needs for further development in focused programs, such as the
AvSP, with a specified class of research for potential applications.
3
  The goal of the Aviation Safety Initiative, to contribute to reductions in the fatal aviation accident rate, is
inconsistently stated in Agency documents. These inconsistencies are identified in Appendix C.
4
  The Aviation Safety Initiative established a baselines to measure performance for the aviation fatal accident rates.
However, performance measures did not include baselines for aviation accident rates (nonfatal) or fatality rates. The
baselines are identified in Appendix D.
5
  The success of the AvSP is dependent on overcoming several risks or factors including the challenge of technical
development, user implementation, and availability of resources.
6
  As used in this report, the aviation community includes Government agencies, airlines, airline maintenance, and
aviation-related manufacturers and suppliers.
                                                                                                               2
Background

The commercial aviation accident rate is very low and has remained fairly constant. Air travel is
currently one of the safest modes of transportation. However, the flat accident rate and the
projected growth in air travel will inevitably produce a higher number of accidents in future
years, unless the aviation community acts to reduce the rate of accidents. NASA is developing
technology to make air travel safer through the Aviation Safety Initiative. Without the
development of new technology, there could be a fatal airliner accident somewhere in the world
almost weekly by the year 2015.7 The 1997 report, "White House Commission on Aviation
Safety and Security," recommended a national goal to reduce the aviation fatal accident rate by
a factor 5 (80 percent) within 10 years (2007). The AvSP consists of six projects that will
provide research and technology needed to help the FAA and the aviation community achieve
the national goal. The AvSP is an ambitious program that includes a partnership between
NASA, FAA, other Government agencies, and the aviation industry. For fiscal years 2000
through 2004, NASA budgeted about $500 million for the NASA Aviation Safety Initiative, of
which about $377 million is for AvSP.

Recommendations

We recommended that the Associate Administrator for Aerospace Technology (1) clarify the
Agency's contribution toward the National Aviation Safety Goal to ensure a consistent
representation of NASA's intended performance; (2) identify all baselines necessary to measure
the Agency's performance in meeting the established goals; (3) revise program documentation
available to stakeholders to adequately reflect the risks of development and implementation; and
(4) coordinate with the FAA to resolve differences in baselines and metrics used to guide the
national efforts on aviation safety. These improvements will allow NASA to appropriately
measure NASA's contributions toward meeting the National Aviation Safety goal and provide a
more accurate portrayal of its efforts and the risks involved to Congress, the aviation
community, and the public.

Management's Response

Management concurred with all recommendations. The Associate Administrator for Aerospace
Technology will revise all documentation to ensure that it consistently reflects the Agency's
contribution toward the National Aviation Safety Goal. Management also identified the
baselines necessary to measure its performance; agreed to communicate and stress to partners,
customers, and stakeholders the facts concerning the risk of implementation; and adjusted its
baseline to match the FAA baseline years.



7
 The 1997 report, "White House Commission on Aviation Safety and Security," contains the projection by the Boeing
Commercial Aircraft Group.
                                                                                                 3

Details on the status of the recommendations are in the recommendations section of the report.

[Original signed by]

Roberta L. Gross

Enclosure
Final Report on Audit of NASA's Aviation Safety Program
          FINAL REPORT
NASA’S AVIATION SAFETY PROGRAM
W                                                                        September 26, 2000


TO:              R/Associate Administrator for Aerospace Technology

FROM:            Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of NASA’s Aviation Safety Program
                 Assignment Number A0000100
                 Report Number IG-00-053


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. Your comments on a draft of this report were responsive, and actions are
sufficient to close recommendations 2 and 4. Recommendations 1 and 3 will remain open for
reporting purposes until corrective action is completed. Please notify us when action has been
completed on these recommendations, including the extent of testing performed to ensure
corrective actions are effective.

If you have questions concerning the report, please contact Ms. Karen E. VanSant, Program
Director, Aerospace Technology Audits, at (256) 544-1149,
Ms. Carol A. St. Armand, Program Manager, at (301) 286-7269, or
Ms. Sandra K. Leibold, Auditor-in-Charge, at (256) 544-0970. We appreciate the courtesies
extended to the audit staff. The final report distribution is in Appendix F.


[Original signed by]

Russell A. Rau


Enclosure
                                                     2

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
RP/Director, Programs Division
LaRC/Director, Langley Research Center
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations , 2

     NASA’s Aviation Safety Goal, 2

Appendix A - Objectives, Scope, and Methodology, 10

Appendix B - AvSP Contributions toward the National Aviation Safety
             Goal, 14

Appendix C - Examples of Inconsistent Aviation Safety Goals, 15

Appendix D - Comparison of NASA and FAA Methodologies, 16

Appendix E - Management’s Response, 17

Appendix F - Report Distribution, 21
                               NASA Office of Inspector General

IG-00-053                                                                                September 26, 2000
 A0000100

                                                NASA’s
                                        Aviation Safety Program

                                            Executive Summary

Background. The 1997 report, “White House Commission on Aviation Safety and Security,”
recommended a national goal to reduce the aviation fatal accident rate by a factor of five (80
percent) within 10 years (2007). NASA responded to the report by initiating a major program
planning effort to define the research the Agency will conduct. NASA initiated this effort with
the Aviation Safety Investment Strategy Team (ASIST) and involved industry, Government, and
academic organizations. The recommendations of the ASIST provided the foundation of the
NASA Aviation Safety Initiative. The Initiative is a combination of redirected Research and
Technology Base activities and the creation of the focused AvSP. The AvSP consists of six
projects that will provide research and technology needed to help the FAA and the aerospace
industry achieve the national goal.

For fiscal years (FY’s) 2000 through 2004, NASA budgeted about $500 million for the NASA
Aviation Safety Initiative, of which $377 million is for the AvSP. The AvSP is an ambitious
program that includes a partnership between NASA, FAA, other Government agencies, and the
aviation industry. The Langley Research Center (Langley) is leading the AvSP and works with
personnel at Ames Research Center, Glenn Research Center, and Dryden Flight Research
Center. Additionally, the AvSP works in concert with the full spectrum of commercial8 and
general aviation9 industry manufacturers, suppliers, and operators in implementing this effort.


Objectives. The audit objectives were to assess the adequacy of NASA’s coordination with
FAA and other partners and the Agency’s overall success in achieving program goals and
objectives. Appendix A contains details on the objectives, scope, and methodology used for
this audit.


Results of Audit. The coordination between NASA, FAA, and other partners is adequate.
NASA has a memorandum of understanding with FAA for the overall AvSP. Also, NASA and

8
 Commercial aviation includes both large air carrier operations and smaller commuter operations.
9
 General aviation includes a wide variety of aircraft, ranging from corporate jets to small piston-engine aircraft as well
as helicopters, gliders, and aircraft used in operations such as firefighting and agricultural spraying.
FAA established a Joint Working Group to ensure implementation and monitoring of the
agreement and are preparing agreements for each of the six projects within the program.
Further, FAA detailed a representative to NASA at Langley. NASA also has an agreement in
process with the National Imagery and Mapping Agency to arrange for additional staff.

However, NASA has not consistently portrayed its goal and identified all the measurement
baselines for its Aviation Safety Initiative. Further, NASA has not adequately emphasized the
risks involved with developing and implementing various aviation safety technologies and how
those risks affect the achievement of program success. The Agency is also inconsistent in
integrating its goal and baseline with FAA. As a result, NASA may not be able to measure its
contribution towards meeting the National Aviation Safety Goal. Also, NASA may not fulfill the
expectations of Congress, the aviation community, and the public relating to NASA's aviation
safety efforts.


Recommendations. NASA should clarify its contribution toward the national aviation safety
goal and revise plans, including those with FAA, and goals accordingly to ensure various
Agency documents and Web sites are consistent with NASA’s intended performance. The
Agency should establish baselines to measure its performance relative to its established goals.
Also, NASA should place more emphasis on informing stakeholders about the development
and implementation risks that could adversely affect program success.


Management’s Response. Management concurred with all the recommendations. NASA
management will update documentation to consistently state the AvSP goal. Management has
also adjusted its baseline to match the FAA baseline and will ensure that the Agency’s partners,
customers, and stakeholders understand the development and implementation risks. The
complete text of the response is in Appendix E. Management’s comments are responsive to the
recommendations.




                                                ii
Introduction

The commercial aviation accident rate is very low, but it has shown virtually no improvement
over the last 20 years. The flat accident rate and the projected growth in air travel will
inevitably produce a higher number of accidents as years pass, unless the aviation community
takes action to reduce the rate of accidents. If left unchecked, there could be a fatal airliner
accident somewhere in the world almost weekly by the year 2015. This provides a strong
motivation for aggressive efforts to lower the accident rate. Given the visible, damaging, and
tragic effects of even a single major accident, approaching this number of accidents would
clearly have an unacceptable effect on the public’s confidence in the aviation system and impede
the anticipated growth of the commercial air travel market.

General aviation accounts for the largest number of accidents and fatalities, but the focus of the
national goal is fatal accidents in commercial operations. The commercial airlines are the
primary mode of air transportation for most Americans, and airline accidents have the potential
for significant loss of life. The principal causes of general aviation accidents are similar to
commercial aviation accidents, therefore, the White House Commission recommendations will
also help address the safety of general aviation.

NASA has contributed to aviation safety for 40 years through its research and development
efforts in aeronautics. The achievement of the safety goal requires the continuing efforts of
Research and Technology Base programs 10 and the focused AvSP. The AvSP is NASA's
most recent effort in aviation safety. The AvSP is structured around eight core technologies that
address the three investment areas identified by the ASIST. Appendix B contains details on the
core technologies under development and additional information on AvSP’s contributions
toward the National Aviation Safety Goal. The three investment areas and their respective
percentage of AvSP resources are Accident Prevention (65 percent); Accident Mitigation (10
percent); and Aviation System-Wide Monitoring, Modeling, and Simulation (25 percent). Full
system-wide implementation of the technologies under development will not be completed by
AvSP program end in 200411 and may not be completed by the targeted goal of 2007.
Success of the program will be based on delivering the planned program milestones, typically
with technology that has been demonstrated through models or prototypes.




10
   Research and Technology Base programs involved in work supporting aviation safety include Information
Technology, Aerospace Operations Systems, Rotorcraft, Aerospace Propulsion and Power, Aerospace Vehicle
Systems Technologies, and Flight Research.
11
   The AvSP runs from FY’s 2000-2004.
Finding and Recommendations

NASA’s Aviation Safety Goal

NASA has not clearly defined the intended performance of its Aviation Safety Initiative.
Specifically, the Agency has been inconsistent in: (1) stating its goal for the Initiative, including
its role in the accomplishment of the National Aviation Safety Goal and the accident rates it is
trying to affect; (2) identifying all baselines it will use to measure progress towards meeting its
goal; (3) emphasizing the risks involved with the development and implementation of its aviation
safety technologies and explaining how those risks affect achieving its aviation safety goal; and
(4) integrating its goal and baseline with FAA. These conditions exist because NASA
management publishes a variety of documents on this subject and has not consistently stated in
the various documents what the Agencywide Aviation Safety Initiative will accomplish. As a
result, NASA may not be able to measure its contribution toward meeting the National Aviation
Safety Goal. Also, Congress, the aviation community, and the public may draw inaccurate
conclusions about NASA’s aviation safety efforts, and the President’s overall national aviation
safety goal may not be achieved.


Laws and Guidelines

The Government Performance and Results Act (GPRA) was enacted in 1993 to improve public
confidence in the Federal Government by holding agencies accountable through setting program
goals, measuring performance against those goals, and reporting publicly on progress. NASA
Procedures and Guidelines 1000.2, “NASA Strategic Management Handbook,” dated
February 2000, documents the Agency’s policies, processes, guidelines, and responsibilities for
strategic management as required by GPRA. The Handbook requires that all Agency strategic
plans, the NASA Strategic Plan, Enterprise12 Strategic Plans, and lower level strategic planning
documents include specific elements to ensure consistency of Agency plans and meet GPRA
requirements.

NASA Procedures and Guidelines 7120.5, “NASA Program and Project Management
Processes and Requirements,” dated April 3, 1998, defines the requirements for formulating,
approving, implementing, and evaluating programs and projects. It is intended to support
accomplishment of the NASA programs and projects, consistent with established Agency
strategic planning while satisfying the requirements of multiple stakeholders and customers. The
guidelines require that programs establish metrics related to the program commitments and



12
  NASA established four Strategic Enterprises to function in primary business areas for implementing NASA’s mission
and serving customers. The four enterprises are Human Exploration and Development of Space, Earth Science,
Aerospace Technology, and Space Science. AvSP is a part of the Aerospace Technology Enterprise.

                                                        2
ensure metric data are collected and reported as required by GPRA, the Program Commitment
Agreement13 and other strategic planning
requirements. The guidelines further stipulate that program/project documentation should be
consistent with and provide details for implementing Agency and Enterprise strategic plans.


Aviation Safety Initiative Goals

Although Aerospace Technology Enterprise officials understand that one of the Enterprise goals
is to contribute to reductions in the fatal aviation accident rate, that goal is inconsistently stated in
Agency documents that are available to the aviation community, Congress, and the public.
NASA Strategic plans, Performance Plans and Reports, other program documents, and
Agency Web sites inconsistently state the Agency’s goal regarding aviation safety. The
documents differ in what NASA plans to do and which accident rates are the targets of its
technologies.

Various Agency documents state that NASA’s role is to “enable” reductions in, “contribute” to
reductions in, or “reduce” aviation accident rates. There is a significant difference in meaning
between enabling a reduction in the aviation accident and fatality rates (as stated in the AvSP
draft Program Commitment Agreement, dated November 10, 199914), contributing to a
reduction in aviation accident and fatality rates (as stated in the AvSP program plan, dated
August 1, 1999), and reducing the fatal accident rate by 80 percent (as stated on the AvSP
Internet page, dated August 14, 2000). By using the term “reduce,” NASA does not make
clear that it is only one of several partners that have activities under way to lower the fatal
accident rate and improve aviation safety. The Agency’s Web site implies that the AvSP itself
will reduce the aviation fatal accidents by 80 percent. The Agency does not clarify that the
reduction is a national goal or that AvSP is a contributor toward achieving the goal. While the
terms “contribute” and “enable” are more appropriate in describing NASA’s role in meeting a
national goal, “contribute” most aptly recognizes that NASA is working in partnership with
others on a common goal. Although not as direct as the term "reduce," the use of "enable"
suggests that NASA can make the action possible, but does not clearly reflect the involvement
of others. NASA management agrees that they are one part of a team that together is
contributing toward the national goal. Appendix C provides details on the variations of the goal.

NASA has not consistently identified the accident rates that it wants to lower by the
technologies being developed. Variations range from whether NASA plans to affect the fatal
aircraft accident rate,15 the aircraft accident rate,16 or fatality rates,17 or a combination of all the

13
   The agreement requires clearly defined objectives and public benefits stated in a way that can be understood by the
average citizen.
14
   During our audit, the term “enable” changed to “contribute” in draft versions of the Program Commitment
Agreement.
15
   The fatal accident rate can be calculated as the number of accidents with one or more fatalities divided by a measure of
aviation activity, such as the number of aircraft miles flown, aircraft hours flown, or departures.

                                                            3
rates. Most of the Agency documents include reductions to the aviation accident rate. Other
documents state the goal is to reduce the fatal accident rate. Reductions to the fatality rate are
declared primarily within the AvSP definition documents. The National Transportation Safety
Board (NTSB)18 separately calculates and individually tracks fatal aircraft accident rates,
aviation accident rates, and fatality rates.

AvSP documentation should be consistent with and provide details for implementing Agency
and Enterprise Strategic Plans. Goals should be expressed in a manner that allows a future
assessment of whether they are being achieved. Agency documentation should consistently
portray the goal because each of the rates is measurable and could be used as a measure of
success. The Independent Annual Review19 of the AvSP conducted in April 2000, also noted
these inconsistencies. The review briefing package states, “Without a clear distinction between
the program goal and the program objectives, and specific definitions of the program’s minimum
success criteria, it will be difficult to determine whether or not the AvSP is successful.”


Performance Measurement Baselines

While NASA has been inconsistent in stating the goal of the NASA Aviation Safety Initiative in
various Agency documents, the baselines used to measure performance consistently refer to
only the aviation fatal accident rates. Performance measures do not include a baseline for
aviation accident rates (nonfatal) or fatality rates. Aviation accidents, for example, outnumber
fatal aircraft accidents 170 to 24,20 respectively, for commercial carriers.21 Although
technologies developed within the AvSP are expected to have some effects on the nonfatal
accident rates and fatality rates, the program office is not measuring program success by their
effects on the various rates. According to program officials, the fatal accident rate is a subset of
the aviation accident rate and, therefore, a reduction in the fatal accident rate would also reduce
the accident rate. However, the AvSP has separately identified and equally stated in the
program’s goals, plans to also contribute to reductions in aviation accident rates and fatality
rates. Unless management revises the AvSP goal to reflect only the fatal accident rate, the

16
   An accident is an occurrence associated with the operation of an aircraft that takes place between the time a person
boards the aircraft with the intention of flight and until such time as all such persons have disembarked and (1) in which
any person suffers death or serious injury or (2) in which the aircraft receives substantial damage.
17
   Fatality rates include deaths and fatal injuries that result in death within 30 days of the accident.
18
   The NTSB is an independent Federal agency charged by Congress with investigating every civil aviation accident in
the United States and is responsible for maintaining the Government's database on civil aviation accidents.
19
   The Independent Program Assessment Office performs an Independent Annual Review of NASA programs to assess
progress and milestone achievement against the program baselines and to evaluate cost, schedule and technical content
of the program over its entire life cycle.
20
   The number of fatal accidents and nonfatal accidents is for the AvSP baseline timeframe of 1990-1996, and is based
on data published by the NTSB.
21
   Commercial carriers are those conducting operations under Federal Aviation Regulation Part 121. This applies to air
carriers, such as major airlines and cargo haulers that fly large transport aircraft. For the purposes of this report, future
reference to this type of aircraft will be commercial carriers.

                                                              4
Agency should establish baselines to also measure its performance relative to aviation accident
rates and fatality rates.


Factors Affecting Program Success

The six project areas in the AvSP have identified 40 products that contribute to an overall
capability expected to affect the AvSP goal. The products under development are projected to
reduce the fatal accident rate by about 52 percent for commercial carriers and by about 81
percent for general aviation. However, the success of the AvSP is dependent on overcoming
several risks or factors including:

    •   challenge of technical development;
    •   user implementation of the resulting technology; and
    •   availability of resources (staffing, time, and dollars).

Challenge of Technical Development. The AvSP project managers participated in a
preliminary assessment to estimate the effect of the risks of technology under development and
user implementation to AvSP’s successful achievement of its goal. AvSP managers recognize
that technology development for the 40 products is moderate to hard but agree it is an
appropriate application of NASA resources. The project managers’ assessment of technology
development for the 40 products showed that for 29 (72 percent), there was a high probability
that they would not be developed, as indicated below:

    •   2 (5 percent) products required few technical developments and should be readily
        accomplished;
    •   9 (23 percent) products were a moderate technical challenge and should be
        accomplished;
    •   23 (57 percent) products were considered large technical challenges and may not be
        developed; and
    •   6 (15 percent) products required technical breakthroughs and it is likely that they cannot
        be achieved.

User Implementation. Implementation of the AvSP’s 40 products is a challenge. The project
managers' assessment of user implementation showed that potential users of 21 (52 percent) of
the 40 products have a cautious attitude about implementation.

    •   19 (48 percent) product users are supportive of the new technology.
    •   6 (15 percent) product users are waiting to see how the technology develops.
    •   6 (15 percent) product users are initially skeptical but could be convinced of product
        value.
    •   9 (22 percent) product users are unlikely to agree to field this capability without
        intensive discussion and debate.

                                                  5
In addition, the return on investment for 11 (27 percent) of the 40 products is negative, and
NASA will need to convince the user community of the products' effectiveness to implement the
product technology. Further, for 7 (17 percent) of the 40 products, the industry partners have
little or no interest in developing and implementing the particular product technology. Of the 40
products, 3 have numerous or strong critics within NASA or FAA.

Availability of Resources. Adequate resources are key to program success. However,
three of the six AvSP projects have staffing shortfalls. The shortfalls range from 3 to as many as
11 personnel for a particular project. If program management is unsuccessful in increasing the
staff by October 2000, actions will be taken to descope planned activities, which may affect
meeting AvSP goals.

As a result of the dependence on technical development, implementation, and resources, the
success of the AvSP can only be projected. The actual effect of the AvSP technologies on the
fatal accident rate cannot be directly measured. The success of the technologies and
achievement of the goal is dependent on implementation by the aviation community. NASA
defined minimum success criteria as demonstrating technology that will have at least a 5022
percent impact on the national goal, and that impact will occur only if the aviation community
chooses to implement the technologies produced by the AvSP. While the factors affecting
program success are recognized in the AvSP Program Plan and draft Program Commitment
Agreement, they are not given adequate emphasis on how closely they are linked to the success
of AvSP. NASA needs to emphasize the risks involved with the development and
implementation of its aviation safety technologies and explain how these risks affect the
achievement of its aviation safety goal. Without an understanding of the risks involved, the
aviation community, Congress, and the public will not have a realistic concept of the difficulties
in developing aviation safety products that contribute to reductions in aviation fatal accidents
rates.


FAA and NASA Aviation Safety Activities

In response to the White House Commission’s recommendation on aviation safety, NASA and
FAA coordinated their research activities on aviation safety. In October 1998, the
Administrators of FAA and NASA signed a formal agreement establishing a partnership
between their agencies with the objective of articulating and achieving specific goals in aviation.
One of those goals is aviation safety.




22
 During our audit, the minimum reduction rate changed from 70 to 50 percent in draft versions of the Program
Commitment Agreement.

                                                         6
NASA and the FAA are preparing the “FAA/NASA Integrated Safety Research Plan” 23 in
recognition of the importance of cooperative efforts to optimize the Government research
needed to attain critical aviation safety goals. The plan will serve as a guide for FAA and
NASA cooperation in aviation safety research. The plan states that FAA and NASA must
strive to use common methodologies to assess the success of their research efforts toward
achieving the National Aviation Safety Goal, which is stated in this plan as “an 80 percent
reduction in the commercial fatal accident rate by 2007, as compared to a 1994-1996
baseline.” The plan further states this common goal has been acknowledged and agreed upon
by NASA and FAA. NASA’s aviation safety activities, however, are not in agreement with this
draft plan because Agency documents do not consistently state what the Aviation Safety
Initiative will accomplish. Further, NASA and the FAA are not using common methodologies in
their efforts to affect the National Aviation Safety Goal. For example:

       •    NASA is using fatal accident statistics for 1990-1996 and not the FAA’s 1994-1996
            baseline;
       •    NASA is using “number of departures” as a measure of accidents and FAA is using
            “flight hours;” and
       •    NASA includes general aviation in its performance measure, while FAA includes Part
            135.24

See Appendix D for details on the comparison between NASA and FAA methodologies.

Also, the draft plan does not show the individual effects of NASA and FAA aviation safety
research activities on the goal. The plan should clearly state the individual contributions at these
Agencies so Congress, the aviation community, and the public will know what the respective
agencies are contributing toward reducing the fatal accident rate.


Conclusion

NASA's goal to reduce the fatal aviation accident rate is an important national priority.
Nevertheless, some of the goals, as stated, are optimistic and could lead to unfulfilled
expectations by Congress, the aviation community and the public. In addition, without
appropriate baselines to measure the program’s performance, NASA may not achieve its full
contribution to the overall national aviation safety goal, and that goal may not be achieved.




23
     This draft plan is dated July 2000.
24
     Part 135 applies to commercial air carriers commonly referred to as commuter airlines and to air taxis.

                                                               7
Recommendations, Management's Response, and Evaluation of
Response

The Associate Administrator for Aerospace Technology should:

        1. Clarify the Agency’s contribution toward the National Aviation Safety Goal
        and revise plans and goals in various Agency documents to ensure a consistent
        representation of NASA’s intended performance.

Management's Response. Concur. The Office of Aerospace Technology clarified its
Aviation Safety Program goal as “develop and demonstrate technologies that contribute to a
reduction in the aviation fatal accident rate by a factor of 5 by year 2007 and a factor of 10 by
year 2022” and will update all documentation (strategic plan, Program Commitment Agreement,
Program Plan, Web page, etc.) accordingly. The complete text of management's response is in
Appendix E.

Evaluation of Response. Management’s actions are responsive to the recommendation.
After the receipt of the comments, management indicated that it would have actions completed
by December 31, 2000. The recommendation is considered resolved but will remain
undispositioned and open until the agreed corrective action is completed.

        2. Identify all baselines necessary to measure the Agency’s performance in
        meeting the established goals.

Management's Response. Concur. The Office of Aerospace Technology will adjust its
baseline to match the FAA baseline years of 1994–1996 (see Appendix E).

Evaluation of Response. Management's actions are responsive to the recommendation.
Management's actions are sufficient to close the recommendation for reporting purposes.

        3. Revise program documentation available to stakeholders to adequately
        reflect the risks of development and implementation of various technologies.

Management's Response. Concur. Management agrees that program documentation should
adequately reflect the risk of development and implementation, and will communicate and stress
these risks to their partners, customers and stakeholders (see Appendix E).

Evaluation of Response. Management's actions to ensure stakeholders appropriately
understand the risk are responsive to the intent of the recommendation. Our draft
recommendation requested that management revise goals and program documentation.
Management did not believe it appropriate to revise the goals, although the phrase “when
implemented” has been used in statements of the goal in AvSP’s budget and FAA


                                               8
Memorandum of Understanding documentation to identify the development and implementation
risk. We defer to management's judgment regarding changes to the goal to reflect risk.
Management recognized that program documentation should reflect the risk of development and
implementation of the technologies. In their comments, management cited examples of program
documentation that does reflect the risks. However, in discussions with the OIG, management
acknowledged that information available to the public, such as the Aviation Safety Website,
could be improved. After the receipt of the comments, management indicated that it would
have actions completed by December 31, 2000. This recommendation is considered resolved
but will remain undispositioned and open until the publicly available documentation is updated.

       4. Coordinate with the FAA to revise the draft “FAA/NASA Integrated Safety
       Research Plan” to resolve differences in baselines and metrics used to guide
       the national efforts on aviation safety.

Management's Response. Concur. The Office of Aerospace Technology will conform to
the baseline years established by the FAA, and will reflect them in the FAA/NASA Integrated
Safety Research Plan (see Appendix E).

Evaluation of Response. Management's actions are responsive to the recommendation.
Management's actions are sufficient to close the recommendation for reporting purposes.




                                               9
             Appendix A. Objectives, Scope, and Methodology

Objectives

Our overall objective was to determine whether overall program management of AvSP is
effective. Specifically, our audit work included an assessment of:

   •   the adequacy of coordination with FAA and other partners, and

   •   overall success in achieving program goals and objectives including metrics used to
       measure program performance.


Scope and Methodology

To accomplish our objectives, we obtained an overall understanding of the National Aviation
Safety Goal by reviewing the following prior studies and assessments.

   •   National Research Council Report, “Aviation Safety and Pilot Control,” 1997.
   •   RAND Institute of Civil Justice Report, “Safety in the Skies,” 1999.
   •   National Academy of Public Administration, “A Review of the Aviation Safety
       Reporting System,” 1994.
   •   Department of Transportation, Office of Inspector General Report, “Top Ten
       Management Issues,” (Issue 1-Aviation Safety), 1998.
   •   Federal Aviation Administration FY 2000 Annual Performance Plan.
   •   National Transportation Safety Board, “Annual Review of Aircraft Accident Data,
       Calendar Year 1996-U.S. Air Carrier Operations,” 1999.
   •   Aerospace Safety Advisory Panel Reports for 1998 and 1999.
   •   National Science and Technology Council, “National Research and Development Plan
       for Aviation Safety, Security, Efficiency, and Environment Compatibility,” 1999.
   •   Final Report to President Clinton from the White House Commission on Aviation Safety
       and Security, 1997.
   •   An Aviation Safety Research Investment Strategy: Report of the ASIST Team, 1997.
   •   ir Safety Foundation, “1999 Nall Report: Accident Trends and Factors for 1998.”

We focused our review on the NASA AvSP and its six projects. We reviewed the program to
determine whether reasonable milestones and measures had been established by which to
assess performance and ensure success. We also reviewed the performance and business
management plans. Specifically, we:




                                              10
                                                                                Appendix A

   •   Obtained various program planning documents such as the Program Commitment
       Agreement (draft), Program Plan, Non-Advocate Review, FAA/NASA Integrated
       Safety Research Plan (draft), FAA/NASA Memoranda of Agreement/Understanding,
       Joint Working Group minutes, Monthly and Quarterly Program Reviews, and
       Independent Annual Review.

   •   Interviewed management personnel in both the AvSP office and Aerospace Systems
       Analysis branch at Langley; the NASA Headquarters Aviation Safety Goal Manager;
       the Office of Aerospace Technology Deputy Director, Programs Division; and a
       member of the Non-Advocate Review and the Independent Annual Review teams.


Management Controls Reviewed

We reviewed relevant Federal and NASA regulations on program management and aviation.
Specifically, we reviewed the GPRA; NASA Procedures and Guidelines 1000.2, “NASA
Strategic Management Handbook”; NASA Procedures and Guidelines 7120.5A, “NASA
Program and Project Management Processes and Requirements”; NASA Web Policy: Policy
for NASA Information Published over the Internet; and 49 Code of Federal Regulations Part
830, "Notification and Reporting of Aircraft Accidents or Incidents."

With respect to NASA’s Aviation Safety Initiative, we also reviewed the following documents
that implement the management controls identified.

   •   1998 NASA Strategic Plan with 1999 Interim Adjustments
   •   Aerospace Technology Strategic Plan, 1995-2000
   •   Langley Implementation Plan for FY 2000
   •   NASA FY 2001 Performance Plan
   •   NASA FY 1999 Performance Report
   •   NASA FY 1999 Accountability Report
   •   AvSP Non-Advocate Review and Independent Annual Review
   •   Budget requests for FY 2000 and FY 2001

Management controls regarding program documentation should be improved as discussed in the
finding.


Prior Audit Coverage

There has been no prior audit coverage on the NASA Aviation Safety Program. However, we
issued the following report relating to Aviation Safety in 1998.

                                             11
Appendix A

“Report on FAA/NASA Research and Development Coordination Efforts,” Report
Number P&A-98-005, October 8, 1998. This audit was a joint effort with the Department of
Transportation, Office of Inspector General. The audit focused on aviation safety and air traffic
management research because they are the two major joint activities supporting the National
Airspace System and receive most of the funding (projected $1.3 billion) through FY 2002.
The audit identified areas where the FAA and NASA can take action to enhance the
effectiveness of their coordination efforts and help ensure agency resources are used in the most
cost-effective manner.

The General Accounting Office (GAO) has issued several reports on the subject of Aviation
Safety; however, the GAO audits are of NASA’s aviation safety partner, the FAA. The
following reports specifically address the National Aviation Safety Goal and FAA’s history
regarding implementation of safety recommendations.

“Aviation Safety: Safer Skies Initiative Has Taken Initial Steps to Reduce Accident
Rates by 2007,” GAO/RCED-00-111, dated June 2000. The initiative should help improve
aviation safety, but has not challenged all sectors of the aviation community to push aggressively
for safety improvements. There are no challenging goals established for general aviation. The
Safer Skies25 initiative has made progress in selecting and implementing interventions for
identified safety problems, but in the past, FAA did not consistently implement the interventions
successfully. Performance measures need to be developed to evaluate the effectiveness of the
implemented interventions. Coordination has been extensive but needs improvement for the
initiative to succeed. Additional steps need to be taken to ensure that those safety interventions
most critical to reducing the nation’s fatal accident rate are given top priority and funding.

“Aviation Safety: FAA Has Not Fully Implemented Weather-Related
Recommendations,” GAO/RCED-98-130, dated June 2, 1998 and “Aviation Safety:
FAA Generally Agrees with but Is Slow in Implementing Safety Recommendations,”
GAO/RCED-96-193, dated September 23, 1996. Both of these reports noted FAA’s
limited progress in implementing safety recommendations. The FAA generally agreed with the
recommendations but did not consistently follow through on implementing them.

“Aviation Safety and Security: Challenges to Implementing the Recommendations of
the White House Commission on Aviation Safety and Security,” GAO/T-RCED-97-90,
dated March 5, 1997. GAO testified that the White House recommendations were a good
start toward ensuring greater safety for passengers, restructuring the relationships between
Government and private industry, and maintaining America’s global

25
  Safer Skies is an FAA focused initiative addressing safety problems that have contributed to fatal accidents in the
past and is designed to bring about a five-fold reduction in fatal accidents.

                                                           12
                                                                                         Appendix A

leadership in aviation. Yet, key questions remain about how and when the recommendations
will be implemented, how much they will cost, and who will pay the cost.


Computer-Processed Data

We used computer-processed reports from NASA Headquarters, Langley, the FAA, and
NTSB to understand aviation fatal accident rates. We reviewed and tested selected data but
did not verify the overall validity of the reports. The lack of verification did not affect our audit
results.


Audit Field Work

During January through August 2000, we conducted field work at NASA Headquarters and
Langley. We performed the audit in accordance with generally accepted government auditing
standards.




                                                  13
                    Appendix B. AvSP Contributions toward the
                          National Aviation Safety Goal

  Investment Area       Project             Technology                    Impact                  Number Of
                                                                                                   Products
Accident            System-Wide        Human error             Improve human/machine                  8
Prevention          Accident           assessment              integration in design,
                    Prevention         methodologies           operations, and maintenance
                    (SWAP)

Accident            Single Aircraft    Health and usage        Continuously track,                     3
Prevention          Accident           monitoring              diagnose, and restore the
                    Prevention         technologies            health of on-board system,
                    (SAAP)                                     enabling self-healing designs
                                                               and “refuse to crash aircraft”

Accident            SAAP               Not reflected in core   Provide upset prevention and            4
Prevention                             technologies            recovery and identify future
                                                               group accident precursors

Accident            Weather            Affordable              Bring intelligent weather               3
Prevention          Accident           technologies and        decision making based on
                    Prevention         systems to obtain       worldwide, real-time hazard
                    (WxAP)             critical weather        awareness to every cockpit
                                       information
Accident            WxAP               Turbulence modeling     Eliminate severe turbulence             3
Prevention                             and detection           as an aviation hazard
                                       technologies

Accident            Synthetic          Synthetic vision        Make every flight the                   5
Prevention          Vision             technologies            equivalent of clear-day
                    (SV)                                       operations

Accident            Accident           Advanced structural     Increase survivability when             8
Mitigation          Mitigation         and material designs    accidents do occur
                    (AM)
Aviation System-    Aviation           Integrated aviation     Monitor and assess all data             6
wide Monitoring     System             system monitoring       from every flight for both
Modeling and        Modeling and       tools                   known and unknown issues
Simulation          Monitoring
                    System
                    (ASMM)

                                                               Total Products                          40



        Appendix C. Examples of Inconsistent Aviation Safety Goals

         Document                  Time Period                     Highlighted Inconsistencies
White House Commission on         Feb. 1997       Government and industry establish a national goal to reduce the

                                                          14
Aviation Safety and Security                        aviation fatal accident rate by a factor of 5 within 10 years and
                                                    conduct safety research to support that goal.
NASA Strategic Plan*               1998-2002        Develop technologies to reduce the aviation fatal accident
                                                    rate.
                                   2003-2009        Contribute to a reduction in the accident rate by a factor of 5.
                                                    Contribute to a reduction in the aircraft accident rate by a
                                   2010-2023        factor of 10.

Performance Report                 FY 1999          Contribute to aviation safety by reducing the aircraft
                                                    accident rate.
Aerospace Technology               FY 2000          Reduce the aircraft accident rate by a factor of 5 within 10
Enterprise Strategic Goal                           years and by a factor of 10 within 25 years.
Accountability Report              FY 1999          Same as Aerospace Technology Enterprise Strategic Goal.
Performance Plan                   FY 2001          Same as Aerospace Technology Enterprise Strategic Goal.
Budget Requests                    FY 2000/01       Develop and demonstrate technologies that
                                                    contribute to a reduction in aviation accident and fatality
                                                    rates by a factor of 5 by the year 2007 compared to the 1994-
                                                    1996 average.
AvSP Program Plan                  Aug. 1999        By 2004, develop and demonstrate technologies that
                                                    contribute to a reduction in aviation accident and fatality
                                                    rates by a factor of 5 by year 2007 and by a factor of 10 by year
                                                    2022.
AvSP Program Commitment            Nov. 1999        Develop and demonstrate technologies that enable a
Agreement-Draft                                     reduction in aviation accident and fatality rates by a factor of 5
                                                    by year 2007.
AvSP Internet page                 Aug. 2000        Reduce the fatal aircraft accident rate by 80
                                                    percent in 10 years and by 90 percent in 25 years.
“Turning Goals Into Reality”       May 2000         Reduce the accident rate by a factor of 5 within 10 years and
Conference                                          by a factor of 10 within 25 years.

 * The “NASA Strategic Plan,” 1998 with 1999 interim adjustments, page 30, describes the Agency objectives for the
 Aviation Safety Initiative.




                                                         15
           Appendix D. Comparison of NASA and FAA Methodologies

The White House established the overall National Aviation Safety Goal; however, the White
House did not set forth specific recommendations as to categories of operation or specific
baseline criteria. NASA and the FAA determined their own specific criteria. The FAA-NASA
integrated plan, compared to the individual NASA and FAA stated goals and the variances in
metrics to measure achievement of the National Aviation Safety Goal are noted below.

                 FAA-NASA
                  Integrated
                 Safety Plan1                   NASA                                       FAA2

Category of     Commercial        Part 1213         General Aviation     Part 121            Part 1354
Operation
Measure         Fatal accident    Number of fatal   Number of fatal      Number of fatal accidents per 100,000
                rate              accidents per     accidents per        flight hours5
                                  100,000           100,000 flight
                                  departures        hours

Scope           Not identified    Scheduled         Not applicable       Scheduled and       Scheduled service
                                  service                                nonscheduled
                                                                         services
Source          Not identified    Flight data is submitted to Bureau     Flight data is submitted to Bureau of
                                  of Transportation Statistics.          Transportation Statistics. Accident data
                                  Accident data is provided by           is provided by NTSB
                                  NTSB
Baseline        Not identified    The average of The baseline is         The average of all Parts 121 and 135 fatal
                                  Part 121           the sum of all      accidents for the 3 years from 1994-1996
                                  scheduled, for     fatal accidents
                                  fatal accidents    from 1990-1996
                                  for the 7 years    (2,891) divided
                                  from 1990-         by the sum of all
                                  1996               the estimated
                                                     hours flown over
                                                     that period
                                                     (171,120,000)
Calculated      Not identified    0.044 per          1.690 per           0.037 per 100,000 flight hours
rate                              100,000            100,000 flight
                                  departures         hours

1
  This draft plan is dated July 2000.
2
  FAA methodologies are taken from its Fiscal Year 2000 Annual Performance Plan, pages 14-15. FAA applied the 80-
percent reduction in the nation’s fatal accident rate only to commercial aviation and adopted a less aggressive accident
reduction goal for general aviation.
3
  Part 121 refers to large transport aircraft such as major airlines and cargo haulers.
4
  Part 135 applies to aircraft commonly referred to as commuter airlines and air taxis.
5 The FAA Administrator’s Fact Book dated July 2000, page 45, refers to a measure of 100,000 departures instead of
the flight hours noted in the FAA Performance Plan for Fiscal Year 2000.




                                                           16
Appendix E. Management’s Response




               17
                 Appendix E




Change made,
Page 1


Change made,
Page 1




Clarification
made, Page 5




Change made, Page 6




No change
required




                              18
     Appendix E




                  Footnote 5
                  added,
                  Page 16




19
Appendix E




             20
                        Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
R/Associate Administrator for Aerospace Technology
RP/Director, Programs Division

NASA Advisory Officials

Chair, Aerospace Technology Advisory Committee

NASA Centers

Director, Langley Research Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space
Inspector General, Department of Transportation

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies


                                            21
Appendix F

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees (Cont.)

Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Subcommittee on Aviation
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             22
                   NASA Assistant Inspector General for Auditing
                                  Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: NASA's Aviation Safety Program

Report Number:                                             Report Date:


             Circle the appropriate rating for the following statements.

                                                          Strongl                              Strongl
                                                             y      Agree   Neutra   Disagre   y         N/A
                                                           Agree              l         e      Disagre
                                                                                                  e
1.   The report was clear, readable, and logically           5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.                5       4        3         2         1      N/A
3.   We effectively communicated the audit objectives,       5       4        3         2         1      N/A
     scope, and methodology.
4.   The report contained sufficient information to          5       4        3         2         1      N/A
     support the finding(s) in a balanced and objective
     manner.


Overall, how would you rate the report?

         Excellent                     Fair
         Very Good                     Poor
         Good


If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?


Yes: ______                                     No: ______

Name:___________________________

Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Karen E. VanSant, Program Director, Aerospace Technology Audits

Carol A. St. Armand, Program Manager, Aerospace Technology Audits

Sandra K. Leibold, Auditor-in-Charge

Betty G. Weber, Operations Research Manager

Nancy C. Cipolla, Report Process Manager

Patricia J. Atkinson, Program Assistant
